en plazos mensuales, de conformidad
con las disposiciones en este Contrato.

ACUERDO DE PLAN DE
CUENTAS ROTATIVAS
MASTERCARD
(“CONTRATO”)
(Para Tarjetas contratadas a partir
de enero 2019)

El uso de las tarjetas de crédito
MasterCard que Oriental Bank
(“Banco”, “nosotros”, “nos”) emita
bajo este contrato (cada una, “Tarjeta”)
se regirá por los siguientes términos y
condiciones y por las disposiciones de
las divulgaciones aplicables a la
Tarjeta
contratada
por
usted
(individual y conjuntamente de ser más
de uno, “Titular”, “usted”, “su”, “sus”)
que le son provistas con este Contrato
y las que le enviemos junto con su
Tarjeta las cuales forman parte integral
del mismo (cada una, “Divulgación” y,
en conjunto con este Contrato, según
sean enmendados de tiempo en tiempo,
el “Contrato”).
El Titular y/o la(s) personas a quienes
usted autorice a utilizar la Cuenta (cada
uno, “Usuario Autorizado”) podrán
usar la Tarjeta para: comprar o
arrendar mercancías y servicios en
aquellos establecimientos donde se
acepte la Tarjeta (“Compras”); obtener
adelantos en efectivo a través de
cualquier banco que acepte la Tarjeta
sujeto a los límites fijados de tiempo en
tiempo por el Banco o cualquier otro
banco asociado a MasterCard
International Inc. (“Asociación”) al
que se presente la Tarjeta (“Adelantos
en Efectivo”); y para realizar
transferencias de balances de otras
instituciones (“Transferencias de
Balances”). La Tarjeta podrá ser
utilizada únicamente para fines
personales, familiares o del hogar. La
Tarjeta no podrá ser utilizada para
fines comerciales o corporativos ni
como medio de pago para efectuar
ningún tipo de compra o transacción
ilegal.
El Titular adeudará y se compromete a
pagarle al Banco las sumas cargadas a
su cuenta rotativa objeto de este
Contrato (“Cuenta”) por el uso de la
Tarjeta por el Titular y todo otro
Usuario Autorizado para el pago de
Compras, para obtener Adelantos en
Efectivo (incluyendo cheques de
conveniencia), y para realizar
Transferencias de Balances, más los
CARGOS POR FINANCIAMIENTO
y todo otro cargo aplicable. Toda
cantidad adeudada bajo este Contrato
será pagadera en moneda de curso
legal de los Estados Unidos de
América (“EEUU”) en su totalidad o

LÍMITE DE CRÉDITO: Usted
acuerda que el Banco, para su
conveniencia, establecerá un límite de
crédito y que las Compras, Adelantos
en Efectivo (incluyendo transacciones
mediante cheques de conveniencia) y
Transferencias de Balances que sean
cargados contra la Cuenta, en ningún
momento deberán exceder su límite de
crédito vigente de tiempo en tiempo
(“Límite de Crédito”). Al recibir su
Tarjeta, se le informará su Límite de
Crédito y éste aparecerá en cada estado
de cuenta periódico (“Estado de
Cuenta”) que le enviemos. Usted
acuerda que el Banco podrá cambiar su
Límite de Crédito de tiempo en tiempo
a base de la evaluación de su capacidad
crediticia o historial de pago. Usted es
responsable por vigilar su Límite de
Crédito vigente, el balance de su
Cuenta y el no realizar transacciones
que excedan del Límite de Crédito. De
usted exceder su Límite de Crédito, el
Banco tendrá el derecho a cancelar la
Tarjeta, requerir su devolución o
incautar la misma, y cerrar la Cuenta.
El Banco se reserva el derecho de no
procesar cualesquiera transacciones
que excedan su Límite de Crédito.
Cualquier cantidad en exceso del
Límite de Crédito será pagadera por
usted de inmediato. El pago mínimo
incluirá cualquier exceso sobre su
Límite de Crédito autorizado.
CARGOS POR
FINANCIAMIENTO Y METODO
PARA DETERMINAR EL
BALANCE SOBRE EL QUE SE
IMPONEN:
Usted pagará un CARGO POR
FINANCIAMIENTO mensual
calculado sobre el Balance Diario
Promedio de sus Compras
(incluyendo compras nuevas de
mercancías y servicios), Adelantos en
Efectivo (incluyendo transacciones
con cheques de conveniencia) y
Transferencias de Balances
respectivamente (cada una “Tipo de
Transacciones”) en su Cuenta durante
el período de facturación
correspondiente. El CARGO POR
FINANCIAMIENTO se calculará
como sigue:
TASA DE PORCENTAJE ANUAL
(“APR”, por sus siglas en inglés):
Para determinar los APRs
utilizaremos la Tasa Preferencial de
Estados Unidos publicada por el
Banco de la Reserva Federal de
Estados Unidos (“Prime Rate”).
Determinaremos el APR aplicable a
cada Tipo de Transacciones
sumándole al Prime Rate el margen
correspondiente al Tipo de
Transacciones correspondiente (cada

uno, un “Margen Aplicable”). Si el
Banco de la Reserva Federal de
Estados Unidos dejare de publicar el
Prime Rate, seleccionaremos un
índice similar según sea permitido por
ley o reglamento.
Margen Aplicable: Determinaremos el
Margen Aplicable a Compras y
Transferencias de Balances a base de
su capacidad crediticia al momento de
la aprobación de su solicitud de la
Tarjeta. El Margen Aplicable a
Adelantos en Efectivo lo establecerá
el Banco conforme sus
procedimientos.
Tasa Periódica: Para calcular la tasa
periódica (“Tasa Periódica”)
dividiremos entre 12 el APR
correspondiente a cada Tipo de
Transacciones. El resultado será la
Tasa Periódica Mensual aplicable al
Tipo de Transacciones
correspondiente.
Tasas Variables: Los APRs y, por
consiguiente, las Tasas Periódicas
respectivamente aplicables a cada
Tipo de Transacciones son variables.
Esto significa que pueden aumentar o
disminuir según cambie el Prime
Rate. Un incremento en el Prime Rate
podría representar un aumento en los
APRs aplicables a su Cuenta y en su
pago mínimo. Cualquier aumento en
el Primer Rate será efectivo a partir
del primer día del Período de
Facturación siguiente a la fecha en
que ocurrió el cambio del Prime Rate.
Además, de tiempo en tiempo
podremos cambiar el/los Márgenes
Aplicables a su Tarjeta según sea
permitido por ley o reglamento. Esto
también puede causar que sus APRs,
Tasas Periódicas y pago mínimo
aumenten o disminuyan.
Declaración sobre el MAPR
(Military Annual Percentage Rate)
aplicable a las extensiones de
crédito a consumidores:
La
ley
Federal
proporciona
protecciones importantes a los
miembros de las Fuerzas Armadas y a
sus dependientes con relación a las
extensiones de crédito de consumo. En
general, el costo del crédito de
consumo para un miembro de las
Fuerzas Armadas y sus dependientes
no puede exceder una tasa porcentual
anual (“APR” por sus siglas en inglés)
de 36%. Esta tasa tiene que incluir,
según aplique a la transacción de
crédito o una cuenta: los costos
asociados a primas de seguro; los
cargos por productos complementarios

vendidos en relación con la transacción
crediticia; cualquier cargo impuesto
por concepto de solicitud (aparte de
ciertos cargos por solicitud para
transacciones o cuentas de crédito
específicas);
y
todo
cargo
por participación cobrado (aparte de
ciertos cargos de participación para
una cuenta de tarjeta de crédito).
BALANCE SOBRE EL QUE SE
IMPONEN LOS CARGOS POR
FINANCIMIENTO: Para calcular el
CARGO POR FINANCIAMIENTO
utilizaremos el balance diario
promedio incluyendo compras nuevas
de mercancías y servicios (“Balance
Diario Promedio”).
Para obtener el Balance Diario
Promedio respecto a cada Tipo de
Transacciones: (i) tomamos el balance
inicial del Tipo de Transacciones en
cuestión cada día del período de
facturación, le restamos los pagos
hechos y créditos abonados durante el
día y le sumamos las Compras (para el
cálculo de Balance Diario Promedio de
Compras), los Adelantos en Efectivo
(para el cálculo de Balance Diario
Promedio de Adelantos en Efectivo),
las Transferencias de Balances (para el
cálculo de Balance Diario Promedio de
Transferencias de Balances) y los
débitos misceláneos cargados a la
Cuenta durante el día para llegar al
“balance adeudado en cada día del
período de facturación” respecto a
cada Tipo de Transacción (esto es, por
Compras, Adelantos en Efectivo, y/o
Transferencias de Balances); y (ii)
luego, respecto a cada Tipo de
Transacciones, sumamos todos los
“balances adeudados en cada día del
período de facturación” y dividimos
ese total entre el número de días
comprendidos dentro del período de
facturación; el resultado es el Balance
Diario Promedio para cada Tipo de
Transacciones.
COMPUTO DEL CARGO POR
FINANCIAMIENTO: EL CARGO
POR
FINANCIAMIENTO
correspondiente a determinado período
de facturación para cada Tipo de
Transacciones
se
establece
multiplicando el Balance Diario
Promedio
pendiente
de
pago
correspondiente
al
Tipo
de
Transacciones en cuestión por la Tasa
Periódica aplicable a dicho Tipo de
Transacciones.
Las Compras se cargarán desde la
fecha en que el Banco desembolsa el
dinero al vendedor, arrendador o a la
persona que preste los servicios. Sin

embargo, no se impondrá un CARGO
POR FINANCIAMIENTO respecto a
Compras para períodos de facturación
en que no exista un balance adeudado
previo, siempre y cuando el balance
total de la Cuenta incluyendo las
Compras efectuadas durante el
período de facturación, sea recibido
por el Banco en o antes de la fecha de
vencimiento de dicho pago. No habrá
período de gracia para Adelantos en
Efectivo (incluyendo transacciones
con cheques de conveniencia) ni para
Transferencias de Balances. Los
CARGOS POR FINANCIAMIENTO
respecto a Adelantos en Efectivo,
(incluyendo transacciones mediante
cheques de conveniencia) y
Transferencias de Balances se
impondrán desde la fecha en que
dichos adelantos o fondos se
desembolsen.
Cargo Mínimo de Interés: Los
CARGOS POR FINANCIAMIENTO
se impondrán sobre el balance de
principal únicamente. Disponiéndose
que, el CARGO POR
FINANCIAMIENTO no será menor
de $1.50.
Para detalles sobre los cargos, tasas
aplicables a Compras, Adelantos en
Efectivo, Transferencias de Balances y
sus correspondientes APRs, otras tasas
y APRs aplicables a ofertas (si alguna),
y otra información aplicable a la
Tarjeta, si alguna, favor de referirse a
la Divulgación.
PAGO MENSUAL MÍNIMO:
Usted podrá efectuar el pago del
balance nuevo en su totalidad o en
plazos mensuales, cada uno de los
cuales deberá ser por lo menos por una
cantidad igual o mayor al pago mínimo
según indicado a continuación (el
"Pago Mínimo"). De efectuar el pago
del balance total adeudado de Compras
dentro de 21 días a partir de la fecha
del envío del Estado de Cuenta y de no
existir un balance previo en dicho
periodo de facturación no se le cobrará
CARGOS POR FINANCIAMIENTO
sobre dicho balance pagado de
Compras. El Pago Mínimo es la suma
(i) del Pago Mínimo Corriente (según
definido adelante), (ii) de cualquier
porción vencida del pago mínimo
previo (“Past Due Amount”) y (iii) de
la cantidad por la cual su balance
excede su Límite de Crédito.
Su Pago Mínimo Corriente será una
cantidad equivalente al 2% del balance
adeudado o $15, lo que sea mayor;
disponiéndose que, si su balance
adeudado fuera menor de $15,
entonces su Pago Mínimo Corriente
será el total del balance adeudado
(“Pago Mínimo Corriente”). Su Pago
Mínimo también incluirá deudas
atrasadas.

Además del Pago Mínimo, según se
detalla en su Estado de Cuenta
Mensual, usted deberá pagar a la fecha
de vencimiento mensual del Pago
Mínimo todo cargo generado por
atrasos. El Titular podrá pagar el total
adeudado en cualquier momento.
APLICACIÓN DE PAGO: Si usted
realiza el Pago Mínimo requerido en
el Estado de Cuenta mensual, dicho
pago será aplicado en el siguiente
orden: (1) a los CARGOS POR
FINANCIAMIENTO; (2) al balance
adeudado en Compras; (3) al balance
en Adelantos en Efectivo (incluyendo
cheques de conveniencia) y (4)
Transferencias de Balances. Para
pagos en exceso del Pago Mínimo
requerido, el exceso se aplicará al
balance pendiente con mayor APR y
cualquier porción restante del exceso a
otros balances en orden descendente
basado en el APR aplicable. Su pago se
acreditará el mismo día una vez se
reciba en la dirección indicada en el
Estado de Cuenta y si es con un cheque
de un banco localizado en Puerto Rico
o EEUU y está acompañado del
talonario de pago. Pagos en efectivo
deben hacerse en cualesquiera de
nuestras sucursales. No remita pagos
en efectivo por correo; de remitirlos lo
hará a su riesgo. Si realiza su pago a
través de una sucursal del Banco, el
mismo se acreditará el mismo día en
que se recibe si efectúa el mismo antes
de la hora de cierre de la sucursal en
efectivo o con un giro o cheque de un
banco localizado en Puerto Rico o en
EEUU. Pagos realizados a través del
buzón en sucursal tienen que incluir el
talonario de pago para que se puedan
procesar el mismo día en que sean
colocados en dicho buzón. Pagos en
efectivo deben hacerse en cualesquiera
de nuestras sucursales. No deposite
pagos en efectivo en el buzón; de
hacerlo lo hará a su riesgo. Los pagos
electrónicos programados previamente
(“scheduled payments”), pagos a
través de Bill Pay originados por
Oriental Online y otros pagos
generados por Internet que sean
recibidos por el Banco antes de las
5:00 pm de lunes a viernes (salvo días
feriados) y todo otro pago recibido
(incluyendo pagos por teléfono y
pagos recibidos a través de Bill Pay
originados a través de otros bancos)
recibidos por el Banco antes de las
7:00 pm de lunes a viernes (salvo días
feriados)
serán
procesados
y
acreditados el mismo día. Si su día de
pago fuera un domingo o día feriado,
su pago se considerará un pago
realizado a tiempo siempre que sea
recibido por el Banco durante el
próximo día laborable.
ESTADO
DE
CUENTA
MENSUAL: El Banco le enviará
mensualmente un Estado de Cuenta al
finalizar cada período de facturación.
En cada Estado de Cuenta se indicarán
las siguientes partidas según sean
aplicables: balance anterior, pagos,
créditos, débitos, Compras, Adelantos

en Efectivo,
Transferencias de
Balance, y cheques de conveniencia
efectuados durante el período en
cuestión,
el
CARGO
POR
FINANCIAMIENTO, los APRs, fecha
de cierre del periodo de facturación, el
total del balance nuevo, el Pago
Mínimo y la fecha en que vencerá
dicho pago (“Estado de Cuenta”).
Usted deberá notificar por escrito al
Banco cualquier error en el Estado de
Cuenta dentro de los sesenta (60) días
siguientes a la fecha en que el Banco le
haya remitido el primer Estado de
Cuenta que refleje el alegado error. El
Banco se reserva el derecho a no enviar
Estado de Cuenta en los casos
permitidos por ley, incluyendo pero no
limitado, para cada período de
facturación al final del cual la Cuenta
tiene un balance igual a cero y no
exista actividad alguna durante el
período de facturación; si la Cuenta
fuera clasificada por el Banco como
incobrable; si se hubiera radicado una
acción judicial en cobro de lo
adeudado o cuando por disposición de
la ley se prohíba el envío de dicho
Estado de Cuenta.
INCUMPLIMIENTO: Usted habrá
incumplido este Contrato si deja de
hacer algún pago a tiempo, si radica
quiebra, o si incumple cualquier otra
disposición de este Contrato. Sin
limitación de cualesquiera otros
derechos bajo este Contrato o bajo la
ley
aplicable,
en
caso
de
incumplimiento, el Banco podrá
reclamar el pago de la totalidad del
balance adeudado. Si el Banco se ve en
la necesidad de tener que cobrarle a
usted por la vía legal, usted podría
además incurrir en gastos legales y
honorarios de abogado, así como
cualquier otra suma autorizada por ley.
Además, si el Pago Mínimo no es
recibido por el Banco dentro de sesenta
(60) días consecutivos a partir de la
fecha de vencimiento de dicho pago, el
APR aplicable a balances existentes y
a nuevas Compras, Adelantos en
Efectivo (incluyendo transacciones
mediante cheques de conveniencia) y
Transferencias de Balances aumentará
a la tasa de penalidad por
incumplimiento indicada en la
Divulgación (“Tasa de Penalidad” o
“Tasa de Incumplimiento”). En dicho
caso, la Tasa de Penalidad será efectiva
a partir del período o ciclo de
facturación completo que comience
cuarenta y cinco (45) días después de
la fecha de la notificación de
aplicación de la Tasa de Penalidad. La
Tasa de Penalidad se le aplicará a
transacciones efectuadas a partir de
quince (15) días siguientes a la
notificación correspondiente. La Tasa
de Penalidad se le eliminará luego de
que el Banco haya recibido seis (6)
pagos consecutivos de por lo menos la
cantidad del Pago Mínimo en o antes
de la fecha de vencimiento
comenzando con el primer pago
vencedero luego de la fecha de
efectividad del aumento. Al eliminar la

Tasa de Penalidad se le aplicará la tasa
regular conforme la Divulgación sin
que aplique cualquier tasa promocional
o bajo oferta. Durante el periodo de
vigencia de la Tasa de Penalidad, el
Pago Mínimo será calculado al 3% del
balance adeudado.
CUOTA ANUAL: Para la CUOTA
ANUAL aplicable a su Tarjeta
refiérase a la Divulgación.
CARGO POR CONVERSIÓN DE
MONEDA:
Toda
transacción
efectuada en moneda extranjera
aparecerá en su Estado de Cuenta en
dólares
norteamericanos.
La
conversión de moneda extranjera a
dólares
norteamericanos
será
efectuada por la Asociación. La
conversión de moneda extranjera se
calculará utilizando:
a) Una tasa aplicable de cambio
seleccionada por la Asociación entre
las distintas tasas disponibles en el
mercado de divisas durante la fecha en
que su transacción sea procesada. La
tasa de cambio utilizada por la
Asociación a estos efectos pudiese ser
distinta a la tasa obtenida por la propia
Asociación, o
b) Aquella tasa de cambio decretada
por el gobierno aplicable para la fecha
en que su transacción sea procesada.
La Asociación cobrará un Cargo de
Conversión de Moneda de 1% del
monto de la transacción efectuada en
moneda extranjera.
CUENTAS CONJUNTAS: Los
Titulares, de ser más de uno, serán
solidariamente responsables por el
pago total de las Compras, Adelantos
de Efectivo, Transferencias de
Balances y transacciones efectuadas
con
cheques
de
conveniencia
realizados con su Tarjeta. El Banco
podrá, pero no estará obligado a,
requerir la comparecencia y firma del
Titular y de todos los portadores de las
Tarjetas
para
procesar
ciertas
instrucciones o solicitudes que
incluyen, pero no se limitan a (i) la
solicitud de aumento o reducción de la
línea de crédito, (ii) la emisión de
Tarjetas adicionales, y (iii) el cambio
en la dirección a la cual se envía el
Estado de Cuenta de la Tarjeta. En la
medida permitida por ley y reglamento
aplicable usted acuerda liberar de
responsabilidad e indemnizar al
Banco, su compañía matriz, afiliadas,
subsidiarias, directores, oficiales,
empleados y representantes de toda
responsabilidad por daños, pérdidas o
gastos que surjan como resultado de
cualquier acción que realice el Banco
en cumplimiento con las instrucciones
dadas por cualquiera de los portadores
de la Tarjeta.
TARJETA
EXTRAVIADA
O
HURTADA: Si la Tarjeta se
extraviara o fuera hurtada o si usted
sospecha que alguien pudiera utilizarla

sin su autorización, usted deberá
notificar inmediatamente al Banco y
completar
y
someter
aquellos
formularios, querellas, declaraciones
escritas o información que el Banco le
requiera. En caso de pérdida, robo o
posible uso no autorizado, usted podrá
ser responsable por el uso no
autorizado de la Tarjeta hasta una
cantidad que no excederá de $50.00, a
menos que usted haya notificado al
Banco del extravío, hurto o posible uso
no autorizado de la Tarjeta con
antelación a cualquier Compra o
Adelanto en Efectivo, comunicándose
por escrito a la dirección incluida en el
estado de Cuenta y verbalmente libre
de costos al 1-877-541-5739 ó
internacional al 1-866-839-3485.
SUS
DERECHOS
DE
FACTURACIÓN:
Este
aviso
contiene información importante
respecto a sus derechos y las
responsabilidades del Banco bajo la
"Fair
Credit
Billing
Act".
Recomendamos que lo preserve para
referencia futura:
QUÉ HACER SI ENCUENTRA UN
ERROR EN SU ESTADO DE
CUENTA: Notifíquenos en caso de
errores o dudas sobre su Estado de
Cuenta. Si usted cree que su Estado de
Cuenta está incorrecto, o necesita
información acerca de una transacción
reflejada en el mismo, escriba al Banco
(en una hoja separada) a la dirección
que indica su Estado de Cuenta, tan
pronto como le sea posible. No
obstante, el Banco deberá ser avisado
por usted no más tarde de sesenta (60)
días desde que se le envíe el primer
Estado de Cuenta en el cual apareció el
error o problema. Usted puede
comunicarse por teléfono con el
Banco, pero el hacerlo no le conservará
sus derechos. En su carta tiene que
indicar, como mínimo, la siguiente
información: (i) su nombre y número
de Cuenta, (ii) la cantidad en dinero del
alegado error, y (iii) describir el error y
explicar, si le es posible, por qué usted
cree que hay un error. Si necesita más
información, describa la partida sobre
la cual tiene dudas. Si usted ha
autorizado al Banco a pagar su Estado
de Cuenta automáticamente desde su
cuenta de cheques o ahorros, usted
puede detener el pago de cualquier
cantidad que usted piense que es
incorrecta. Para detener el pago, su
carta deberá ser recibida por el Banco
por lo menos tres (3) días laborables
antes de la fecha en que el pago
automático esté programado a ocurrir.
SUS DERECHOS Y LAS
RESPONSABILIDADES DEL
BANCO LUEGO DE HABER
RECIBIDO SU NOTIFICACIÓN
POR ESCRITO:
Cuando el Banco reciba su
comunicación por escrito debemos
hacer dos cosas: (i) dentro de un
período de 30 días del recibo de su
comunicación por escrito, el Banco

acusará recibo de su comunicación y le
informará si ya ha corregido el error; y
(ii) dentro de un período de dos (2)
periodos de facturación completos que
no excederá de 90 días del recibo de su
comunicación por escrito, el Banco
tiene que corregir el error o proveerle
una explicación de por qué
entendemos que el Estado de Cuenta es
correcto.
Mientras investigamos si procede o no
el error: (i) el Banco no puede intentar
cobrarle la cantidad en cuestión, o
reportar su Cuenta en delincuencia por
dicha cantidad; (ii) el cargo en cuestión
puede permanecer en su Estado de
Cuenta y podremos continuar cargando
intereses sobre dicha cantidad; (iii)
aunque usted no tiene que pagar la
cantidad en cuestión, usted es
responsable por el remanente del
balance; (iv) el Banco puede aplicar
cualquier cantidad no pagada contra su
Límite de Crédito.
Luego de que terminemos la
investigación, sucederá una de dos
cosas: (i) Si cometimos un error usted
no tendrá que pagar la cantidad en
cuestión o cualquier interés o cargo
relacionado a dicha cantidad; o (ii) si el
Banco no cree que hay un error, usted
tendrá que pagar la cantidad en
cuestión, junto con los intereses y
cargos aplicables. El Banco le enviará
un Estado de Cuenta por la cantidad
que usted adeuda y la fecha de
vencimiento de pago. El Banco podrá
entonces reportar su Cuenta en
delincuencia si usted no paga la
cantidad que el Banco entiende que
usted adeuda. Si usted recibe nuestra
explicación pero sigue pensando que el
Estado de Cuenta está incorrecto, usted
tiene que enviarle al Banco una
comunicación por escrito dentro de los
próximos
diez
(10)
días
informándonos que usted aún se rehúsa
pagar la transacción en disputa. Si
usted lo hace, el Banco no puede
reportar su Cuenta en delincuencia sin
haber también informado que hay una
disputa sobre su Estado de Cuenta.
Además, el Banco le informará los
nombres de todas las personas o
entidades a las cuales le haya provisto
información sobre su Cuenta en
delincuencia, y también le hará saber a
dichas personas o entidades cuando se
llegue a un acuerdo sobre su
reclamación.
Si el Banco no cumple con lo anterior,
no puede cobrarle los primeros $50.00
de la cantidad en disputa aún cuando su
Estado de Cuenta estuviera correcto.
SUS DERECHOS SI USTED NO
ESTA SATISFECHO CON SU
COMPRA DE CREDITO: De usted
no estar satisfecho con los bienes o
servicios comprados con su Tarjeta, y
de usted haber tratado de buena fe de
corregir el problema con el
comerciante o vendedor, usted pudiera
tener el derecho a no pagar por el

remanente de la deuda relacionada con
esa mercancía o servicio. Hay tres
limitaciones a este derecho: (i) usted
debe haber hecho la compra en Puerto
Rico o, si no en Puerto Rico, dentro de
un radio de cien (100) millas de su
dirección de facturación y el precio de
la Compra debe ser mayor de $50; (ii)
usted tiene que haber utilizado la
Tarjeta para realizar la compra
(compras realizadas con adelantos en
efectivo de un cajero automático
(“ATM”) o con un cheque que tenga
acceso a la Cuenta de la Tarjeta (por
ejemplo con cheques de conveniencia)
no cualifican ; y (iii) usted no debe
haber pagado en su totalidad la
Compra. Las limitaciones anteriores
no aplicarán si el comercio es
propiedad o está controlado por el
Banco, o si el Banco le envió a usted el
anuncio o propaganda de la mercancía
o servicio. Si usted cumple con todos
los criterios y aún así no está satisfecho
con la Compra escríbanos a la
dirección indicada anteriormente;
mientras investigamos, aplican las
mismas
reglas
discutidas
anteriormente en cuanto a la cantidad
de la disputa. Luego de que
terminemos la investigación nosotros
le comunicaremos nuestra decisión. En
ese momento, si entendemos que usted
debe cualquier cantidad y usted no la
paga, podremos reportar su Cuenta en
delincuencia.
ENMIENDAS: El Banco se reserva el
derecho a enmendar este Contrato
incluyendo el APR, LOS CARGOS
POR FINANCIAMIENTO, la cuota
anual, aumento en el Pago Mínimo
requerido, y otros cargos y términos en
el presente Contrato, que constituyan
cambios significativos según definido
por ley o reglamento, en cualquier
momento mediante aviso escrito al
Titular enviado con no menos de
cuarenta y cinco (45) días de
anticipación a la fecha de efectividad
de la enmienda excepto que de otro
modo lo permita la ley o reglamento
aplicable; en el caso de cuentas con
más de un Titular, la notificación a
cualquiera de ellos será efectiva para
todos. Cualquier otra enmienda que no
constituya un cambio significativo
según definido por ley o reglamento
podrá ser notificada por el Banco y
será efectiva conforme los términos
que exijan dicha ley o reglamento.
Cualquier enmienda a los CARGOS
POR
FINANCIAMIENTO
será
aplicable a las Compras, Adelantos en
Efectivo (incluyendo transacciones
mediante cheques de conveniencia), y
a las Transferencias de Balances
realizados a partir de la fecha de
vigencia de la enmienda.
DERECHO
A
RECHAZAR
ENMIENDAS:
De
usted
ser
notificado con una enmienda respecto
a la cual se le provea la oportunidad de
rechazar, deberá actuar conforme se le
indique en la notificación. Si el Banco
no hubiera recibido el Pago Mínimo
requerido dentro de sesenta (60) días

después de su fecha de vencimiento
usted no tendrá derecho a rechazar
enmiendas.
TERMINACION
DEL
CONTRATO, CANCELACIÓN DE
LA TARJETA Y DENEGACION
DE TRANSACCIONES: Usted
puede cancelar este Contrato en
cualquier
momento
mediante
notificación al Banco por escrito a esos
efectos y la devolución de su Tarjeta
partida en dos. El Banco se reserva el
derecho de cancelar el crédito
extendido bajo la Tarjeta y podrá dar
por terminado este Contrato en
cualquier momento. La Tarjeta es
propiedad del Banco y éste podrá: (i)
cancelar o revocar su derecho a usarla
en cualquier momento, con o sin causa,
y sin previa notificación; (ii) suspender
el uso de la Tarjeta incluyendo, sin
limitación, por razones de seguridad o
si detectara actividad poco usual o
sospechosa en su Cuenta hasta tanto
verifique la legitimidad de la
transacción. El Banco podría aprobar
Compras, Adelantos de Efectivo
(incluyendo transacciones con cheques
de conveniencia) y Transferencias de
Balances que excedan su límite de
crédito sin renunciar a sus derechos
bajo este Contrato.
El Banco puede limitar el número de
Compras, Adelantos de Efectivo
(incluyendo transacciones mediante
cheques
de
conveniencia)
y
Transferencias de Balances aprobados
durante cualquier día y no será
responsable por transacciones no
autorizados por el Banco a un tercero
aún cuando usted tenga crédito
disponible. Usted se obliga a devolver,
a solicitud del Banco, toda Tarjeta
emitida bajo este Contrato y continuará
siendo responsable por el pago de todo
balance adeudado al momento de la
cancelación. Sus obligaciones bajo
este Contrato continúan vigentes en
cuanto a todo balance adeudado, aun
cuando este Contrato sea dado por
terminado por usted o por el Banco o
de cualquier otra forma. El Banco
podría emitirle una Tarjeta distinta en
cualquier momento.
SEGUROS: Toda cubierta de seguros,
incluyendo seguro de protección de
vida,
muerte
accidental
y
desmembramiento,
incapacidad o
desempleo involuntario, es opcional y
no es una condición para extender el
crédito.
DISPOSICIONES
MISCELÁNEAS: La omisión por
parte del Banco de ejercer cualquier
derecho bajo este Contrato no
constituirá una renuncia a dicho
derecho. Si alguna cláusula o parte de
una cláusula de este Contrato fuera
declarada nula o inválida por cualquier
razón por un tribunal o dejase de tener
efecto por disposición legal o
reglamentaria,
las
disposiciones
restantes de este Contrato no se
afectarán y continuarán en vigor.

Usted entiende y está de acuerdo que
estas Tarjetas no podrán ser utilizadas
para fines comerciales o corporativos.
A discreción del Banco, éste se reserva
el derecho de convertir su Cuenta a
cualquier otro tipo de cuenta rotativa
del Banco en cualquier momento,
siempre y cuando usted cumpla con los
criterios crediticios establecidos por el
Banco para la nueva cuenta.
USTED NO ESTÁ OBLIGADO A
ACEPTAR LA TARJETA, NI
SERÁ
RESPONSABLE
DE
CARGO ALGUNO A MENOS QUE
USTED
ELIJA
ACEPTARLA
MEDIANTE EL USO DE LA
MISMA. EL TITULAR TIENE
DERECHO A RESCINDIR ESTE
CONTRATO SI DENTRO DE
QUINCE (15) DÍAS A PARTIR
DEL RECIBO DEL CONTRATO Y
SIN HABER UTILIZADO LA(S)
TARJETA(S) LO NOTIFICA AL
BANCO. El uso de la Tarjeta por el
Titular o por cualquier Usuario
Autorizado constituye aceptación de la
misma y de los términos y condiciones
de este Contrato por parte del Titular.
De usted no desear aceptar la Tarjeta,
deberá notificar al Banco dentro de los
quince (15) días luego de recibirla, sin
haberla utilizado. Para notificar que no
desea aceptar la Tarjeta, deberá
comunicarse libre de costos al 1-877541-5739 ó internacional al 1-866839-3485.
Usted autoriza al Banco a investigar
sus referencias de crédito. El Banco se
reserva el derecho de expedir o no,
renovar o no, la(s) Tarjeta(s).
En caso de reclamación contra la
persona o entidad que vendió la
mercancía o proveyó los servicios
pagados mediante cargos a la cuenta de
la Tarjeta, el titular resolverá dichas
disputas directamente con el vendedor
de la mercancía o servicios. En caso de
devolución de mercancía o ajustes a los
cargos por servicios el Titular acepta
créditos a la Cuenta en lugar de
devoluciones en efectivo.
Este Contrato se regirá e interpretará a
tenor con las leyes del Estado Libre
Asociado de Puerto Rico.
Oriental Bank
Servicio al Cliente
PO Box 31535
Tampa, FL 33631-3535

